                                        -
                      Closeout for M93110058
     This case came to OIG via a November 16, 1993 telephone call
and November 20, 1993 letter from
complainant), who has been a graduate student and postdoctoral
fellow at the
                                                               (the
                                                            at the
                                                           o OIG by
                                                 in NSF1s Office of
i                0                ) , who had previously handled a
variety of race and sex discrimination matters that the complainant
had brought to him.     The complainant alleged various kinds of
misconduct by C-                   (the subject) and others at the
university,    including    harassment,    threats,   intimidation,
misrepresentation, intellectual theft, theft of scientific data and
equipment, and threats on her life.
      OIG wrote to the complainant to get more specific information
about her allegations and their connection to NSF. When she did
not reply, we sent a second letter to her post office box, telling
her that we could not proceed without more information from her.
We set a deadline for her response, but offered to extend it if she
needed more time to fashion an adequate reply. According to the
Postal Inspector, the complainant received OIG's letter, opened it,
and left it in her post office box; after several weeks, the Post
                                                 " OIG's efforts to
Off ice then returned it to us marked I1unclaimed.
telephone the complainant have been similarly unavailing.
     For most of the allegations, OIG1s inquiry did not reveal any
evidence that the alleged misconduct involved NSF proposals and
awards. The subject has not been principal investigator on an NSF
award since before the time when the alleged incidents of
misconduct began. The research center with which the subject is
affiliated is not sponsored by NSF.      Although the complainant
states that other investigators at the center or in the subject's
department may have NSF awards, this would not normally give us
jurisdiction over all alleged misconduct that was in any way
connected to the center or department.
     OIG also examined the complainant's OEO file for evidence
bearing on her allegations of misconduct in science. The file
included complaints about the university's unwillingness to permit
the complainant to submit a proposal to NSF. In her correspondence
with OEO, the complainant had characterized this refusal as
discriminatory. OIG concluded that universities have no obligation
to permit postdoctoral fellows to submit proposals as principal
investigators. Because such submissions imply a readiness to have
a continuing relationship with the fellow in the event that the
proposal is funded, they involve a commitment beyond the fellowship
itself. It is reasonable for universities to exercise discretion
in making such commitments, and it is not misconduct in science for
them to refuse to do so in individual cases.
     OIG lacks the information to pursue the other aspects of this
case without the complainant's caoperation. Although the deadline
we gave the complainant has passed, she has not replied to our
request for further information. We therefore have no alternative
but to close the case.
      This case is closed and no further action will be taken.

cc:   Staff Scientist, Deputy AIG-Oversight,AIG-Oversight, Counsel
      to IG, IG
